WAIVER

SUPREME COURT OF THE UNITED STATES

Supreme Court Case No. 19-839

Eastern Oregon Mining Association, et al. y, Otegon Dept of Environmental Quality, et al.
(Petitioner) (Respondent)

1 DO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless one is requested
by the Court.
Please check one of the following boxes:

{@ Please enter my appearance as Counsel of Record for all respondents.

(There are multiple respondents, and I do not represent all respondents. Please enter my
appearance as Counsel of Record for the following respondent(s):

 

 

T certify that I am a member of the Bar of the Supreme Court of the United States (Please explain if

your name WO Ee
Signaturé jot
Date: | fi (2 | az 7

Benjamin Gutman
Mr Ms. Ms. (] Miss

Fiym_Oregon Department of Justice

(Type or print) Name

Address 1162 Court Street
City & State Salem, Oregon Zip 97301-4096
Phone (503) 378-4402
A COPY OF THIS FORM MUST BE SENT TO PETITIONER’S COUNSEL OR TO PETITIONER

IF PRO SE. PLEASE INDICATE BELOW THE NAME(S) OF THE RECIPIENT(S) OF A COPY
OF THIS FORM. NO ADDITIONAL CERTIFICATE OF SERVICE IS REQUIRED.

SEE REVERSE FOR INFORMATION CONCERNING THE STATUS OF A CASE ON THE
DOCKET.

CC: Damien Michael Schiff, Attorney for Petitioner
